February 8, 2007

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Management Advisory – Sale of the Philadelphia Main Post Office
         (Report Number CA-MA-07-002)

This report presents the results of our review of the sale of the Philadelphia Main Post
Office (Project Number 07YG010CA000). We conducted this review after the General
Services Administration (GSA) Office of Inspector General (OIG) contacted us regarding
their concerns about the sale of the property. During our review, we found several
issues that warrant reporting to you in this management advisory.

                                     Background
The former Philadelphia, Pennsylvania, Processing and Distribution Center (P&DC),
located at 2970 Market Street, is a U.S. Postal Service-owned facility constructed in
1935 to serve as the main distribution center for the Philadelphia ZIP Code areas
190-192. The P&DC is located on a 21.2-acre site consisting of four Postal Service-
owned facilities. They are the P&DC, the truck terminal annex, the vehicle maintenance
facility, and the railway express annex. In addition, an 11.7-acre parking lot is part of
the complex.

In December 1999, the Postal Service entered into an agreement with Keating
Development Company (Keating) to analyze the Philadelphia properties for
potential development and marketability. The agreement was scheduled to expire in
December 2001. In February 2001, the agreement was extended until December 2006
because the Postal Service’s relocation schedule had been extended.

The University of Pennsylvania was identified as a potential buyer in November 2000.
In March 2004, an agreement was reached with the University of Pennsylvania, whose
campus was adjacent to 30th Street and the Market area, to acquire the entire Postal
Service owned 30th Street complex. The agreement of sale provides for the Postal
Service to lease back a total of 223,892 square feet in the former P&DC for retail and
main office delivery operations and for parking, district administration, postmaster, and
Sale of the Philadelphia Main Post Office                                     CA-MA-07-002



Inspection Service activities. As part of the agreement, the Postal Service will be able
to reconfigure retail functions and relocate carrier operations if the University of
Pennsylvania chooses to develop this space in the P&DC. This sale is not scheduled to
close until the first quarter of calendar year 2007.

In October 2002, the University of Pennsylvania wrote a memo to Keating that stated in
part:

        . . . it would be useful to summarize how the University and Keating
        Development Company could proceed with a joint acquisition of the Postal
        Service complex whereby Keating would acquire the 30th Street facility
        and the University would acquire the remaining postal lands (sic) assets.

In November 2002, Keating notified the Postal Service that the Internal Revenue
Service (IRS) was interested in the properties. In October 2003, Keating began
negotiating with the IRS and GSA on its own (Keating’s) behalf. Keating suggested that
one of its entities purchase the main post office building when the Postal Service sold
the properties to the University of Pennsylvania. As part of the arrangement, Keating
would lease the building back to the Postal Service, which would sublease the building
to GSA for IRS’ use.

                          Objectives, Scope, and Methodology
The GSA OIG contacted us regarding its concerns about the sale of the Philadelphia
property. Based on the issues raised, we interviewed employees of Facilities Realty
Asset Management and reviewed documentation concerning the sale.

We conducted this review from April 2006 through February 2007 in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
We discussed our observations and conclusions with management officials and
included their comments where appropriate.

                                      Prior Audit Coverage
The U.S. Postal Service OIG has not issued any previous audit reports on this subject.
However, in April 2006, the GSA OIG informed us of its concerns about the sale of this
property. GSA OIG had been monitoring the sale and leasing plans for the property and
believed we should be aware of the circumstances surrounding those plans. On
July 11, 2006, the GSA OIG issued a memorandum to the GSA Mid-Atlantic Regional
Administrator expressing concerns regarding the sale of the property and subsequent
lease arrangements. These concerns included the lack of competition for the lease, the
classification of the lease as a capital lease, the lack of documentation made available
to GSA concerning the sale of the property, the potential security costs, and the need
for contingency plans. GSA OIG will continue to monitor the negotiations of these
transactions and will report further, as warranted.



                                               2
Sale of the Philadelphia Main Post Office                                       CA-MA-07-002



                                            Results
Our review found that the Postal Service did not conduct the sale of the Philadelphia
property in compliance with the requirements of the Postal Service Realty Acquisition
and Management Handbook (RE-1). The property was not valued according to Postal
Service requirements and was not sold on the open market. As a result, the sales price
of the property may not adequately represent the property’s value. In addition, Keating,
the property broker, has multiple business relationships regarding this property with the
buyer, GSA, IRS, and the Postal Service. These multiple relationships result in an
apparent conflict of interest, so there is no assurance that Keating is acting in the Postal
Service’s best interests.

RE-1 Requirements Not Met

The Postal Service did not offer the property first to GSA, as required by the RE-1. The
Postal Service did not obtain the required appraisal, and the property was not offered to
state and local governments or competed on the open market. As a result, the Postal
Service has no assurance that it received the best price for the sale of the property.

When disposing of excess property, the RE-1 requires that these procedures be
followed.

    •   The Postal Service must issue an intergovernmental notice.

    •   The Postal Service must notify the appropriate GSA regional office in writing.

    •   The Postal Service must request that the appropriate GSA region screen federal
        agencies and determine whether GSA or any other federal agency is interested
        in acquiring the property.

    •   If GSA is not interested in acquiring the property, the Postal Service must obtain
        an appraisal to establish the market value of the property.

    •   The Postal Service must offer the property at market value to state and local
        entities that express interest.

    •   The Postal Service must advertise the property on the open market.

The Postal Service did not follow these procedures. Postal Service officials told us that
they did not issue an intergovernmental notice or any written notice to GSA because
they knew that GSA did not have the capital funding necessary to purchase the
property. However, in a November 2002 memorandum, Keating notified the Postal
Service that IRS was interested in leasing the property through GSA, 4 months before
the sales contract was signed with the University of Pennsylvania.




                                               3
Sale of the Philadelphia Main Post Office                                      CA-MA-07-002



The Postal Service also did not obtain an independent appraisal of the property. No
valuation of the property was done before negotiations with the University of
Pennsylvania began.

The Postal Service did not offer the property to state and local governments and did not
advertise the property for sale on the open market. Without market competition, the
Postal Service has no assurance that it received the best, most competitive price for the
property.

Recommendations

We recommend the Vice President, Facilities:

1. Require an independent market value appraisal be completed for the Philadelphia
   property and reevaluate the terms of the sale.

2. Take steps to ensure that all RE-1 requirements are met when disposing of future
   excess properties.

Management’s Comments

Management agreed with recommendations 1 and 2. They had the property appraised,
reevaluated the terms of sale, and trained all staff on updated RE-1 requirements.

Evaluation of Management’s Comments

Management’s actions taken are responsive to recommendations 1 and 2 and should
correct the issues identified in the finding.

Real Estate Sale Brokered by Contractor with Apparent Conflict of Interest

Keating is involved in this transaction as the broker for the Postal Service, a buyer of a
portion of the property from the University of Pennsylvania, a developer of portions of
the property, and a lessor to the Postal Service. These interwoven business
partnerships nullify the existence of an arm’s-length transaction and create an apparent
conflict of interest. The Postal Service cannot be certain that its best interests have
been served.

In December 1999, the Postal Service entered into a planning agreement with Keating
to analyze the Philadelphia properties for potential development and marketability. The
original agreement was scheduled to expire in December 2001. In February 2001, the
agreement was extended until December 2006 because the Postal Service relocation
schedule had been extended.




                                             4
Sale of the Philadelphia Main Post Office                                     CA-MA-07-002



In July 2000, the University of Pennsylvania was identified as a potential buyer for the
Philadelphia properties, and negotiations between the University of Pennsylvania and
the Postal Service began. An October 2002 memorandum from the University of
Pennsylvania to Keating stated that a joint acquisition had been discussed. In
November 2002, Keating advised the Postal Service that they had been approached by
GSA regarding the relocation of certain IRS offices to the main post office building on
the Philadelphia property. Postal Service officials said Keating was instructed not to
discuss this opportunity with the University of Pennsylvania until after the purchase
agreement was complete. In March 2004, a purchase agreement was reached between
the Postal Service and the University of Pennsylvania. In March 2004, the Postal
Service authorized Keating to begin negotiating an arrangement between Keating and
the University of Pennsylvania.

Keating has been brokering an arrangement in which it would immediately purchase the
main post office building from the University of Pennsylvania when the Postal Service’s
Philadelphia properties are sold to the University of Pennsylvania. Keating would then
lease the main post office building back to the Postal Service, which would sublease it
to GSA. Therefore, Keating has a financial interest in the Philadelphia properties as a
broker, purchaser, and lessor. This financial interest began in 2002, when Keating was
also representing the Postal Service in negotiating the sale of the properties. Because
of Keating’s multilayered interests throughout the Postal Service negotiations, the
Postal Service cannot be assured that Keating places the Postal Service’s interests first
when representing them.

Recommendations

We recommend the Vice President, Facilities:

3. Consider Keating’s role in these transactions and take steps to mitigate the apparent
   conflicts of interest that may not be in the Postal Service’s best interests.

4. Ensure that all employees of Facilities Realty Asset Management are educated in
   the appropriate roles of brokers and developers assisting the Postal Service with
   real estate sales, and the importance of avoiding potential conflicts of interest to
   protect the best interests of the Postal Service.

Management’s Comments

Management agreed with recommendations 3 and 4. They have considered the
apparent conflict of interest and have taken steps to better document Keating’s role in
these transactions. In addition, they have taken steps to strengthen controls preventing
conflicts of interest in the future. All actions should be completed by June 1, 2007.




                                            5
Sale of the Philadelphia Main Post Office                                  CA-MA-07-002




Evaluation of Management’s Comments

Management’s actions taken and planned are responsive to recommendations 3 and 4
and should correct the issues identified in the finding.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, Director,
Supply Management and Facilities, or me at (703) 248-2100.

    E-Signed by Mary Demory
 ERIFY authenticity with ApproveI




Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachment

cc: William Galligan
    Deborah A. Kendall




                                            6
Sale of the Philadelphia Main Post Office              CA-MA-07-002



                     APPENDIX. MANAGEMENT’S COMMENTS




                                            7
Sale of the Philadelphia Main Post Office       CA-MA-07-002




                                            8
